201 Redwood Shores Parkway
Redwood Shores, CA 94065
+1 650 802 3000 tel
+1 650 802 3100 fax
Edward R. Reines
+1 (650) 802-3022
Edward.Reines@weil.com

February 19, 2021
BY MESSENGER AND ELECTRONIC FILING
Mr. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Ariosa Diagnostics, Inc., et al. v. Illumina, Inc., et al., No. 20-892

Dear Mr. Harris:
I represent respondents in the above-captioned case. Pursuant to Supreme Court Rule 30.4, I
hereby request a 30-day extension of time within which to file a response to the petition for a writ of
certiorari in this case. The press of other matters makes submission of the opposition difficult absent a
first extension. The petition was docketed on December 30, 2020. This Court called for a response on
February 16, 2021, and the response is currently due on March 18, 2021. If extended, the response would
be due on April 19, 2021.
Please let me know if you have any questions or require any further information.
Respectfully submitted,

Edward R. Reines
cc: counsel for petitioners

